Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





        MEDICARE COMPLIANCE 

             REVIEW OF
         SOMERSET HOSPITAL
        FOR CALENDAR YEARS
         2009 THROUGH 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                                  Stephen Virbitsky

                                               Regional Inspector General 


                                                       March 2013 

                                                      A-03-12-06107 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Somerset Hospital (the Hospital) is a 150-bed hospital located in Somerset, Pennsylvania.
Medicare paid the Hospital approximately $27.6 million for 3,260 inpatient and 63,666
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 through
2011 based on CMS’s National Claims History data.

Our audit covered $594,645 in Medicare payments to the Hospital for 126 claims that we
judgmentally selected as potentially at risk for billing errors. These 126 claims consisted of
86 inpatient and 40 outpatient claims.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 48 of the 126 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 78 claims, resulting in overpayments totaling $313,443 for
CYs 2009 through 2011. Specifically, 38 inpatient claims had billing errors, resulting in
overpayments totaling $115,866, and 40 outpatient claims had billing errors, resulting in
overpayments totaling $197,577. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements within the selected risk areas that contain errors.

RECOMMENDATIONS

We recommend that the Hospital:

   	 refund to the Medicare contractor $313,443, consisting of $115,866 in overpayments for
      38 incorrectly billed inpatient claims and $197,577 in overpayments for 40 incorrectly
      billed outpatient claims, and

   	 strengthen controls to ensure full compliance with Medicare requirements.

SOMERSET HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them.




                                               ii
                                                 TABLE OF CONTENTS


                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1


          BACKGROUND ..............................................................................................................1        

              Hospital Inpatient Prospective Payment System ......................................... 1 

              Hospital Outpatient Prospective Payment System ................................................1 

              Hospital Claims at Risk for Incorrect Billing .......................................................1 

              Medicare Requirements for Hospital Claims and Payments ................................2 

              Somerset Hospital .................................................................................................2          


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2 

               Objective ...............................................................................................................2   

               Scope ............................................................................................... 3 

               Methodology .........................................................................................................3       


FINDINGS AND RECOMMENDATIONS .............................................................................4 


          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ...............................4 

                Incorrectly Billed as Inpatient ...............................................................................4            

                Incorrect Diagnosis-Related Groups .....................................................................5                   

                Incorrect Source-of-Admission Code ...................................................................5                     


          BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS...........................5

                Noncovered Dental Services .................................................................................5               


          RECOMMENDATIONS ..................................................................................................6               


          SOMERSET HOSPITAL COMMENTS..........................................................................6 


APPENDIXES:

          A: RISK AREAS REVIEWED AND BILLING ERRORS

          B: SOMERSET HOSPITAL COMMENTS




                                                                   iii
                                              INTRODUCTION 


BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113.1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group.2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:


1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1

       inpatient short stays,

       inpatient claims billed with high severity level DRG codes,

       inpatient psychiatric facility (IPF) emergency department adjustments, and

       outpatient dental services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Somerset Hospital

Somerset Hospital (the Hospital) is a 150-bed hospital located in Somerset, Pennsylvania.
Medicare paid the Hospital approximately $27.6 million for 3,260 inpatient and 63,666
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 through
2011 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                   2

Scope

Our audit covered $594,645 in Medicare payments to the Hospital for 126 claims that we
judgmentally selected as potentially at risk for billing errors. These 126 claims had dates of
service in CYs 2009 through 2011 and consisted of 86 inpatient and 40 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements, but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital in Somerset, Pennsylvania during July through
December 2012.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
      Claims History file for CYs 2009 through 2011;

   	 used computer matching, data mining, and analysis techniques to identify claims
      potentially at risk for noncompliance with selected Medicare billing requirements;

   	 selected a judgmental sample of 126 claims (86 inpatient and 40 outpatient) for detailed
      review;

   	 reviewed available data from CMS’s Common Working File for the sampled claims to
      determine whether the claims had been cancelled or adjusted;

   	 reviewed the medical record documentation provided by the Hospital to support the
      sampled claims;

   	 requested that the Hospital conduct its own review of the sampled claims to determine
      whether the services were billed correctly;

   	 reviewed the Hospital’s procedures for submitting Medicare claims;


                                                 3

    	 discussed the incorrectly billed claims with Hospital personnel to determine the 

       underlying causes of noncompliance with Medicare requirements; 


    	 calculated the correct payments for those claims requiring adjustments; and

    	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 48 of the 126 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 78 claims, resulting in overpayments totaling $313,443 for
CYs 2009 through 2011. Specifically, 38 inpatient claims had billing errors, resulting in
overpayments totaling $115,866, and 40 outpatient claims had billing errors, resulting in
overpayments totaling $197,577. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements within the selected risk areas that contain errors.
For a detailed list of the risk areas that we reviewed and associated billing errors, see the
Appendix.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 38 of the 86 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $115,866.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 26 of the 86 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital stated that the errors occurred because the medical records did not clearly identify the
patient’s inpatient or outpatient status or document the level of care needed, and case
management reviews were inadequate. As a result of these errors, the Hospital received
overpayments totaling $106,637.3

3
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.

                                                         4

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 3 of the 86 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that the errors occurred because of weak and inconsistent medical record
documentation, and because billing staff did not obtain clarification from the physician when
necessary. As a result of these errors, the Hospital received overpayments totaling $8,405.

Incorrect Source-of-Admission Code

CMS increases the Federal per diem rate for the first day of a Medicare beneficiary’s IPF stay to
account for the facility’s costs associated with maintaining a qualifying emergency department
(42 CFR § 412.424). The Manual, chapter 3, section 190.6.4, states that CMS makes this
additional payment regardless of whether the beneficiary used emergency department services.
However, the IPF should not receive the additional payment if the beneficiary was discharged to
the IPF from the acute-care section of the same hospital.

The Manual, chapter 3, section 190.6.4.1, states that source-of-admission code “D” is reported
by an IPF to identify patients who have been transferred to the IPF from the same hospital. The
IPF’s proper use of this code is intended to alert the Medicare contractor not to apply the
emergency department adjustment.

For 9 of the 86 sampled claims, the Hospital incorrectly coded the source of admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute-care
section. The Hospital stated that the errors occurred because its patient registration staff had not
been educated on the appropriate use of source-of-admission code “D.” As a result of these
errors, the Hospital received overpayments totaling $824.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for all 40 sampled outpatient claims that we reviewed.
These errors resulted in overpayments totaling $197,577.

Noncovered Dental Services

Section 1862(a)(12) of the Act states: “no payment may be made under part A or part B for any
expenses incurred for items or services where such expenses are for services in connection with
the care, treatment, filling, removal, or replacement of teeth or structures directly supporting
teeth ....”

For all 40 sampled claims, the Hospital incorrectly billed Medicare for the treatment or removal
of teeth. The Hospital stated that the errors occurred because billing staff incorrectly used bill
type 131, instead of bill type 130 with condition code 21, for dental claims. In addition, when

                                                 5

the Hospital took corrective action in November 2010 as the result of a prior OIG audit, it did not
correct claims paid prior to that date and did not include four dental HCPCS codes in the edit.
As a result of these errors, the Hospital received overpayments totaling $197,577.

RECOMMENDATIONS

We recommend that the Hospital:

   	 refund to the Medicare contractor $313,443, consisting of $115,866 in overpayments for
      38 incorrectly billed inpatient claims and $197,577 in overpayments for 40 incorrectly
      billed outpatient claims, and

   	 strengthen controls to ensure full compliance with Medicare requirements.


SOMERSET HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them. The Hospital’s comments are included in their entirety as Appendix B.




                                                6

APPENDIXES

                   APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS



                                               Sampled             Value Of              Claims With            Value Of
             Risk Area                          Claims          Sampled Claims          Overpayments          Overpayments
Inpatient short stays                              53                $193,780                   23                 $83,893
Inpatient claims billed with high
severity level diagnosis-related                   24                  175,217                  61                   31,149
group codes
Inpatient psychiatric facility
                                                    9                   28,071                   9                         824
emergency department adjustments
 Inpatient Totals                                  86                $397,068                   38                $115,866



Outpatient dental services                         40                $197,577                   40                $197,577

 Outpatient Totals                                 40                $197,577                   40                $197,577



 Inpatient and Outpatient Totals                  126                $594,645                   78                $313,443




      1
        Three of the six claims with overpayments in the high severity-level diagnosis-related group codes category were
      incorrectly billed as inpatient.
                                                                                               Page 1 of 2
                      APPENDIX B: SOMERSET HOSPITAL COMMENTS




February 8, 2013

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region Ill
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

RE: Report Number: A-03-12-06107

Dear Mr. Virbitsky:

I am in receipt of the U.S. Department of Health and Human Services, Office of Inspector General
(OIG) draft report entitled Medicare Compliance Review of Somerset Hospital for Calendar Years
2009 through 2011, dated January 16, 2013, and am hereby providing the Hospital's written response
and comments requested therein. As stated during our exit conference, we are in general agreement
with the OIG's audit findings and recommendations, and have already submitted corrected billings
and initiated various corrective actions, as further explained below:

   1. Inpatient claims incorrectly billed as inpatient services

       We agree that 26 of the 86 sampled claims should have been billed as outpatient or outpatient
       with observation services. Claim cancellations have been submitted for these 26 claims, and
       our Medicare Administrative Contractor (MAC) has already retracted the full amount of the
       identified overpayments.

       In response to these findings, we have already begun working with our medical staff in an
       effort to more clearly and accurately identify patient status designations, and have undertaken
       various training and education initiatives with our case management staff in an effort to
       improve their review processes and patient status determinations. Lastly, we have initiated a
       pre-billing review of all short-stay admissions and outpatient observation patients in order to
       ensure the accuracy of our future billings to Medicare.

   2. Inpatient claims with incorrect DRGs

       We agree that three of the 86 sampled claims were billed with incorrect coding assignments
       and were paid at incorrect DRG rates. Corrected claims have been submitted for these three
       occurrences, and have already been processed and re-adjudicated by our MAC, thus
       effectively fulfilling our refund obligation for the identified overpayments.

                                                    ADDRESS                   PHONE            WEB
                                                    225 South Center Avenue   (814) 443 5000   www.somersethospital.com
                                                    Somerset, PA 15501-2088   (814) 443 4937   info@somersethospital.com
                                                                              FAX              EMAIL
                                                                                            Page 2 of 2

       In response to these findings, we have apprised our coding staff of the three identified errors,
       and have undertaken various training and education initiatives related to the querying of
       physicians in response to inconsistencies and deficiencies in medical record documentation.
       Although we regret the fact that these three coding errors occurred, we continue to have a
       high degree of confidence in our coding staff.

   3. Inpatient claims with incorrect source-of-admission codes

       We agree that nine of the 86 sampled claims were reported with incorrect source-of-admission
       codes for patients who were admitted to our IPF directly from our acute care service. The
       identified refunds have already been retracted by our MAC following the hospital's submission
       of corrected claims.

       In response to these findings, we have educated our registration staff on the appropriate use
       of source-of-admission code "D", and have implemented a pre-billing review of IPF claims
       intended to confirm the accuracy of future source-of-admission code assignments.

   4. Outpatient claims for non-covered dental services

       We agree that all 40 of the sampled claims involved noncovered dental services, and were
       therefore incorrectly billed to and paid by Medicare. As you may know, we had conducted a
       review of these claims prior to the initiation of the OIG's audit, and had apprised the OIG staff
       of our review findings. With the OIG's concurrence, we also initiated full refunds of all of the
       identified overpayments via the submission of claim cancellations to the hospital's MAC.

       In response to these findings, we have already educated and re-educated our billing staff
       regarding the correct bill type and condition code to be reported for outpatient surgery cases
       involving noncovered dental services. We have also initiated a pre-billing review of all dental
       surgery cases in order to confirm the accuracy of the bill type and condition code reported on
       future claim submissions to Medicare.

Please know that Somerset Hospital is committed to complying with the various rules and regulations
under which we must operate, and will continue to strive to ensure the accuracy of our future billings
to Medicare and all other payers and patients. We will also ensure that the corrective measures
outlined above are effective in preventing the re-occurrence of the respective identified errors, and will
monitor the effectiveness of these measures on an ongoing basis.

Thank you for the opportunity to respond to your report, and for the courtesy and professionalism
extended to us throughout the audit. Please contact me at your convenience with any questions
regarding the above comments, or if any of my colleagues or I can be of any assistance to you.

Sincerely,



Ronald M. Park
Chief Executive Officer
